COMMODITY FUTURES TRADING COMMISSION

  SEMIANNUAL REPORT
        OFTHE·




   OFFICE OF THE·
INSPECTOR GENERAL




 FOR THE PERIOD ENDING MARCH 31, 2006
                           U;S. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                     -www.cftc.gov-


   Office of the                                April 28, 2006
Inspector General




      TO:            Reuben Jeffery III
                     Chairman

     . FROM:         A. Roy Lavik
                     Inspector General
                                      Q Q'£
      SUBjECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report ofthe Office ofthe Inspector General for the period
      from October 1,2005 through March 31, 2006. This report is submitted to you in accordance
      with the requirements of Section 5 ofthe Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

      Attachment
            . OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION
                               SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                    . October 1, 2005 THROUGH March 31, 2006

                             TABLE OF CONTENTS

SUMMARY OF OIG ACTNITIES [including a description of significant problems, abuses,
     and deficiencies and a description of OIG recommendations for corrective action
     (Mandated by Section 5(a)(I) and (2) of the Act)]                                      1
     AlJDITS                                                                                1
   . rnYESTIGATIONS                                                                         2
     LEGISLATNE AND REGULATORY REVIEWS                                                      3

OIG RESPONSIBILITIES                                                                        3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS               ~                                                4

COMPLETED WORK                                                              :                5
    AlJDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)].                    5
    rnYESTIGATIONS                                                                  :        6
    LEGISLATIVE AND REGULATORY REVIEWS                                                       6

AlJDIT REPORTS OVER SIX MONTHS OLD                              :                           7

       CORRECTNE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   7
       CORRECTNE ACTION COMPLETED                                                           7




                                               1
      MANAGEMENT DECISION NOT MADE [including a sUmmary of each audit
      report issued before the commencement of the reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation ofthe reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(10)
      of the Act)]                                                                         7

SUMMARY OF MATTERS REFERRED TO PROSECUTNE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           7

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      8

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) of the Act)]                           8

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant manageinent decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) ofthe Act)]                                8

CURRENT AUDITS                                                                             8

GAO LIAISON                                                                               13

STRATEGIC PLAN                                                                            14

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                           .19

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act) :                                           20

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                               21




                                             11
                   INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(1)               :                     1

Section 5(a)(2)                                     1

Section 5(a)(3)                                     7

Section 5(a)(4)           ~                         7

Section 5(a)(5)                                     8

·Section 5(a)(6)                                    5

Section 5(a)(7)                                     5

Section 5(a)(8)                                    20

Section 5(a)(9)                                    21

Section 5(a)(10)                                    7

Section 5(a)(11)                                    8

Section 5(a)(12)                               :   ;8




                                  ll1
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office ofthe Inspector General (OIG) ofthe Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-tenn efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 8.)

       Audit of CFTC Financial Statements for Fiscal Year 2006. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       OIG has engaged a contractor to provide the audit effort required to enable the contractor
       to render an opinion on the agency's financial statements for fiscal year 2006 in
       accordance with generally accepted auditing standards, Government Auditing Standards, .
       and OMB Bulletin 01-02. (For additional details, see page 9.)

        Review of Agency Compliance with GPRA. The Government Perfonnance and Results
        Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
        plans setting perfonnance goals, and report annually on actual perfonnance compared to
       .goals. The first report was prepared in March 2000. The objective of this review is to
        determine how effectively the Commission is complying with GPRA's tenns. This
        includes an examination of the perfonnancemeasures devised by the Commission and
      . the systems used for gathering the data to report on those perfonnance measures. (For
        additional details, see page 10.)

       Review of the Need for a Los Angeles Office. In the three years since the closing of the
       Western Regional Office of the Commodity Futures Trading Commission in Los
       Angeles, civil injunctive and administrative cases arising in the states fonnerly served by
       the Western Regional Office have been handled by staff from CFTC's Washington,
       Chicago and Kansas City offices. The objective ofthis review is to detennine whether
       similar cases which may arise in that area in the future could more efficiently and
       effectively be handled by a CFTCoffice in Los Angeles. (For additional details, see
       page 11.)


                                                 1
       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       OMB Circular A-123 (Revised), the Inspector General evaluates, provides technical
       assistance, and advises the agency head as to whether the agency's review and evaluation
       process was conducted in accordance with the circular's requirements. (For additional
       details, see page 12.)

       Evaluation of the CFTC Information Security Program and Practices, FISMA. The
       Federal Information Security Management Act (FISMA) requires the Inspector General
       or his designee to perform annual independent evaluations of the information security
       program and practices ofthe agency. (For additional details, see page 12.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits beginning on page 5.)

        Audit of CFTC Financial Statements for Fiscal Year 2005. In FY 2002, Congress passed
        the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
        other Federal entities, to have its fmancia1 statements audited annually. To this end, the
        OIG has engaged a contractor to provide the audit effort required to enable the contractor
        to render an opinion on the agency's financial statements for fiscal year 2005 in
        accordance with generally accepted auditing standards, Government Auditing Standards,
        and OMB Bulletin 01-02. (For additional details, see page 5.)

        Investigative Peer Review of External Office ofthe Inspector General. A number of
        Offices of theInspector General have agreed to subject themselves to a periodic external
        review of their investigative functions. The objectives of this peer review are to
        determine whether the Office of Inspector General's internal quality control system for
        investigations is adequate, in place, and operating; and whether established policies,
        procedures and applicable investigative standards are being followed in practice. (For
        additional details, see page 6.)


INVESTIGATIONS

          The Inspector General Act of 1978, as amended, provides that the Inspector General may
. receive and investigate complaints or information from the Commission's employees concerning
  the possible existence of an activity constituting a violation of law, rules or regulations, or
  mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
  to the public health and safety.

       No investigations were pending as o:(the beginning of the reporting period, and the OIG
opened no investigations during the period. (See the section on investigations beginning on
page 6.)


                                                 2
LEGISLATIVE AND REGULATORY REVIEWS

       . The DIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.           .

Legislative Activities

        The Inspector General continues to be involved in legislative activities. Congressional
staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES

       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (p.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (p.L. 100-504). The DIG was established to create
an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration ofCFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recomniendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •     Keep the Chairman and Congress fully informed about any problems or deficiencies
             in the administration of CFTC programs and operations and provide
           . recommendations for correction of these problems or deficiencies.




                                                 3
       Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review oflegislative and regulatory proposals and the
monitoring of internal CFTC operations.



      I                               OIG RESOURCES

        The OIG consists ofthe Inspector General, two professional staff members, and a
secretary. All positions have been filled since January 2,2000. The present Inspector General
assumed his position on October 7, 1990.

        The DIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
of the General Counsel (OGC). This Memorandum details the procedures that are used to
provide the OIG with OGC legal services. An OGC staff member has been assigned to provide
such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading CoinInission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the CoinInission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage of the Commodity Futures
Modernization Act of2000 (CFMA).

         The CFMA transformed the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity; and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight reglilation, the CFTC enables the cOrrnllodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.




                                                4
                                   COMPLETED WORK

AUDITS

       The Ola is required to conduct, supervise and coordinate audits of CFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.


1.        Audit of eYre Financial Statements for Fiscal Year 2005

Objective.·

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the objective of this audit is to acquire a contractor who will provide the
audit effort required to enable the contractor to render an opinion on the agency's financial
statements for fiscal year 2005 in accordance with generally accepted auditing standards,
Government Auditing Standards, and OMB Bulletin 01-02.

Status.

        An unqualified independent auditor's report was issued on November 14, 2005. The
independent auditor's report stated four reportable conditions; none of the reportable conditions
are believed to be material weaknesses. Management letter comments were also issued to the
agency. These two documents closed out the Fiscal Year 2005 audit.




                                                    5
2.        Investigative Peer Review of External Office of the Inspector General

Objective.

        A number of Offices of the Inspector General have agreed to subject themselves to a
periodic external review oftheir investigative functions. The objectives of this peer review are
to determine whether the Office of Inspector General's internal quality control system for
investigations is adequate, in place, and operating; and whether established policies, procedures
and applicable investigative standards are being followed in practice.

Status.

        In February 2006, this Office of the Inspector General completed its quality assessment
review of the investigative function of a comparably sized Office of the Inspector General. A
final report was issued on March 14, 2006.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation oflaw, rules or regulatIons, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger .
to the public health and safety.

      No investigations were pending as of the beginning of the reporting period, and the OIG
opened no investigations during the period.


LEGISLATIVE AND REGULATORY REVIEWS

        As specIfied in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews selected exchange rule proposals and
changes.                                                  .

      The OIG has notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Formal comments were not filed with
the Commission.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.



                                                 6
RULE REVIEWS INITIATED THIS REPORTING PERIOD

        The DIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Commission to the futures industry in many regards and the rules sought
to reflect this change.


Legislative Activities

      The Inspector General continues to be involved in legislative activities and contact has
been made with congressional staff on various IG issues.



              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed. .

CORRECTIVE ACTION COMPLETED
        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

       There is one instance of a report issued before the commencement of the reporting period
for which a management decision had not been made by the end of the reporting period. The
Chainnanis continuing to examine the issue.



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period.




                                                7
                       SUMMARY OF EACH REPORT MADE TO
                             THE AGENCY.HEAD

            No reports were made to the agency head under section 6(b)(2) concerning information
    or assistance unreasonably refused or not provided.


I                         REVISED MANAGEMENT DECISIONS

               No management decisions were revised during the reporting period.



                       INSPECTOR GENERAL DISAGREEMENT

          The Inspector General does not disagree with any management decisions on OIG
    recommendations.



                                         CURRENT AUDITS

               The audit agenda and priorities for the OIG are determined based on the following
    factors:

               •   Statutory and regulatory requirements;

               •   Adequacy of internal control systems as indicated by vulnerability assessments and
                   internal control reviews recommended by OMB Circular A-123;

               •   Changes in the program conditions or particular vulnerability of the organization,
                   program, activity, or function to problems or deficiencies;

               •   Current and potential dollar magnitude and likely benefits of a review on the
                   efficiency or effectiveness of CFTC programs and operations;

               •   Management priorities and improvements that may be possible;

               •   Results of audits of CFTC programs and operations by other Federal agencies; and

               •   Availability of audit resources and the potential opportunity costs to the agency.




                                                        8
       The audit agenda and summary of progress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.     Audit of CFTC Financial Statements for Fiscal Year 2006

Objectives.

       In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contnictor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for Fiscal Year
2006 in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.                  .

The specific objectives oftms audit are to determine whether:

       (1) The financial statements present fairly the financial position ofthe Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The six financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement ofNet Cost; (c) Statement of Changes in Net
       Position; (d) Statement of Budgetary Resources; (e) Statement of Financing; and (f)
       Statement of Custodial Activity.

       (2) Management's assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this determination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perform sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

       The independent public accountant (IPA) will limit its internal control testing to those
       controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
       the IPA is not required to test all internal controls relevant to operating objectives as·
       broadly defined by the Federal Manager's Financial Integrity Act of 1982, such as those
       controls relevant to achieving efficient operations.

       With respect to internal controls related to performance measures reported in the
       accountability report, theIPA will obtain an understanding of the design of significant
       internal controls relating to the existence and completeness assertions, as required by
       OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
       controls over reported performance measures.



                                                9
          (3) The agency has complied with selected provisions oflaws and regulations identified
          by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
          a direct and material effect on the determination of financial statement amounts. The IPA
          will limit its tests of compliance to these provisions and need not test compliance with all
          laws and regulations applicable to the CFTC.

          (4) The information in the "Overview ofthe Reporting Entity" is consistent in content
          and presentation with the information in the principal statements and the related notes
          consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
          Documents Containing Audited Financial Statements.

Status.

       An independent public accounting firm was first selected on January 15,2004 to
complete the Fiscal Year 2004 CFTC Financial Statement Audit. Their audit report was
delivered on November 18,2004. The same firm under an option year of the contract rendered
an opinion on November 14, 2005 on the agency's financial statements for Fiscal Year 2005.

       On February 1, 2006, the Fiscal Year 2006 audit plan was delivered to the Office of the
Inspector General. The audit plan was reviewed, modified, and accepted on February 17, 2006.
On March 6, 2006, the Fiscal Year 2006 audit began with a meeting with senior agency
managers. The final audit report is to be delivered to the Office of the Inspector General on
November 10, 2006:

2.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This includes an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

       In response to Congressional interest? the OIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office of the Inspector
General reviewed the Commission's FY 2001 through FY 2005 Annual Performance Plans
before each was submitted to Congress. The OIG will continue to review the Annual
Performance Plan that is included in the annual budget estimate which is submitted to the Office
of Management and Budget. .




                                                   10
         From FY 1999 through FY 2003, Congress each year required the agency to submit a
 report on the agency's performance results by strategic goal. The OIG selectively reviewed
 these reports after they were submitted to Congress.

          Beginning in FY 2004, in response to an OMB directive, the agency submitted a report
  combining the information contained in the annual performance reports with the agency's
  audited financial statements. This combined report is entitled the Performance and
. Accountability Report (PAR). The OIG reviewed the Peformance and Accountability Report
  prior to its being submitted to the Office of Management and Budget and the Congress.

         For FY 2005, the OIG concluded that the agency had made improvements in defining its
 goals and identifying measures for reaching its stated goals. Using information gathered during
 the review of these documents, the Inspector General prepared and submitted in November 2005
 its annual Assessment of the Most Serious Management Challenges Facing the CFTC to the
 Office of Management and Budget.

        For FY 2006, the OIG will review the agency's FY 2006 PAR and prepare its annual
 assessment of the most serious management challenges facing the CFTC.

 3.        Review of the Need for a Los Angeles Office

 Objective.

         In the three years since the closing of the Western Regional Office of the Commodity
 Futures Trading Commission in Los Angeles, civil injunctive and administrative cases arising in
 the states formerly served by the Western Regional Office have been handled by staff from
 CFTC's Washington, Chicago and Kansas City offices. The objective ofthis review is to
 determine whether similar cases which may arise in that area in the future could more efficiently
 and effectively be handled by a CFTC office in Los Angeles.

 Status.

         To determine whether civil injunctive and administrative cases arising in the states
 formerly served by the Western Regional Office (WRO) could more efficiently and effectively
 be handled by a CFTC office in Los Allgeles, the Office ofthe Inspector General first collected
 and analyzed data on the staffing and workload ofthe Western Regional Office from FY 1993
 until the closing of the office at the end of June 2003. Similar data was collected for all the rest
 of the Division of Enforcement from FY 1993 through FY 2005. Partial year data was collected
 for the first quarter ofFY 2006..

       Data is being collected and analyzed for travel expenses for civil injunctive and
 administrative cases arising in the three Pacific coast states of California, Oregon, and
 Washington for FY 2000 through FY 2005.

        Interviews of current and former CFTC WRO staff members are being conducted to
 determine their opinions of the availability of CFTC-related work during their tenures in the



                                                  11
 WRO and their opinions of the current availability ofCFTC-related work in the area formerly
 serviced by WRO.

 4.        Audit of Compliance with the Federal Managers' Financial Integrity Act

. Objective.

        In support ofOMB Circular A-123 (Revised), the Inspector General evaluates, provides
 technical assistance, and advises the agency head as to whether the agency's review and
 evaluation process was conducted in accordance with the circular's requirements.

 Status.

        For the fifth year, the Commission has been working on a new approach to satisfying the
 requirements of Circular A-123 (Revised). The OIG has begun discussions with the staff ofthe
 Office of Financial Management on the new Circular A-123 requirements and CFTC's plans for
 meeting them.

 5.        Evaluation of the CFfC Information Security Program and Practices, FISMA

 Objectives.

         The Federal Information Security Management Act requires the Inspector General or his
 designee to perform annual independent evaluations of the information security program and
 practices of the agency.

 Status.

         The OIG is currently reviewing OMB Guidance on FISMA. To provide a comprehensive
 review ofthe Commission's security program, the Office of Information and Technology
 Services (ITS) and the OIG will work jointly in gathering and interpreting information relating to
 the CFTC information security program. Using the information supplied by the ITS staff, a
 contractor, and the program managers, the Inspector General will review and analyze the
 information and respond to the questions raised by the OMB Guidance. Results of this effort
 will be transmitted to the CFTC's Chief Information Officer (CIO) for combination with the
 CIO's assessment and inclusion in the Chairman's report to OMB.




                                                 12
I                                         GAO LIAISON

            The OIG is charged with providing policy direction for, and conducting, supervising, and
    coordinating audits and investigations relating to CFTC programs and operations. In addition,
    the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
    Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
    investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
    programs and operations.

           GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
    duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
    and the methods of reaching the goals so as to minimize the requirements placed onCFTC
    resources.




                                                    13
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (p.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG
was established to create an independent unit to:

        •   Promote economy, efficiency, and effectiveness in the administration of CFTC
            programs and operations and detect and prevent fraud, waste, and abuse in such
            programs and operations;

        •   Conduct and supervise audits and investigations relating to the administration of
            CFTC programs and operations;

        •   Review existing and proposed legislation, regulations, and exchange rules and make
            recommendations concerning their impact on the economy and efficiency of CFTC
            programs and operations or the prevention and detection of fraud and abuse; and

        •   Keep the Chairman and Congress fully informed about any problems or deficiencies
            in the administration of CFTC programs and operations and provide
            recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary ofthose programs
follows.                                                                             .

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse. .

         The key to effectively and efficiently managing the CFTC is information. Top level
 managers and decision makers require a steady stream of organized data on the effects of their
.policy decisions and resource allocations on the operations of the Commission. Once having
 made the decision to change resource levels or policy, managers must receive accurate and
 timely reports of the operational effects oftheir decision so they can determine if the change is in
 the direction and ofthe magnitude predicted. In the absence of such information, top level
 managers cannot adequately perform their jobs.




                                                 14
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

         A simple example is the Reparations Program prior to the installation of an OIG
 recommended unified, Commission-wide tracking system. Complaints are received and
 processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
 reparations cases are transmitted to the Office of the General Counsel where proposed
 Commission opinions are drafted; and appeals are decided by the Commission with the
 paperwork being handled by the Office of the Secretariat. Each office involved in the process
 had a separate tracking system without ties to the tracking systems in the offices preceding them
 or following them in the process. Each office treated the case .as if it were brand new to the
 Commission when they received it. As a result, there was no provision for tracking infonnation
'across organizational lines. If the Chairman wanted to know how much time was spent on the
 average reparations case of a particular description at each stage in the process, that information
 was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results ofthat activity. The Commission does a good job of tracking
resources expended. It can determine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs .
competing for limited resources, decision makers cannot make. reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management ofCFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

         In addition to our efforts to bring technology to bear on the infonnation requirements of
 the Commission, the OIG has been following the Commission's development of measures and
 systems of measurement in response to the Government Performance and Results Act (GPRA).
 As the Commission implements GPRA, the GIG will devote significant resources to monitoring
 agency performance to insure that the data is accurately gathered and that the measures reported
 are the best available for demonstrating program perfonnance.

 INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
 receive and investigate complaints or infonnation from the Commission's employees concerning



                                                  15
the possible existence of an activity constituting a violation oflaw, rules or regulations, or·
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The GIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
GIG believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the GIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized on the
back cover of this semiannual report.

       Because of the reactive nature of the GIG's investigativeprowam, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because ofthe importance of this activity in an economic regulatory agency, the GIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the GIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive
                      .                          .    to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                16
                                        AUDIT AGENDA

ANNUAL AUDITS

        The following audits are perfonned.on an. annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requireIp.ents.

Evaluation of the CFTC Information Security Program and Practices, FISMA

      The Federal Infonnation Security Management Act (FISMA) requires the Inspector
General or his designee to perfonn annual independent evaluations of the infonnation security
program and practices of the agency.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
theCFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards,
and OMB Bulletin 01-02.

 OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the Chainnan,
the Commissioners, and program managers have timely, useful infonnation on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on detennining whether all managerial levels engaged in a process can track the progress
()ftheir various programs. The tracking systems required in many, though not all, programs will
cross fonnal organizational lines.

          These audits will entail a cataloging and description of all of the manual and automated
  systems used by a program to gather infonnation on its use of resources, the results ofthe
  devotion of those resources (including definitions of measurements of accomplishment), and the
  reporting of results and associated costs to the upper level managers in the Divisi9n and to the
  Chairman and the Commissioners, The cataloging of these decision support systems will be
  followed by an assessment of whether all concerned officials are timely receiving the
. infonnation they require to efficiently allocate resources to those uses which best accomplish the
  priorities ofthe Commission. If any elements are lacking in the infonnation systems, they will
  be identified and improvements will be recommended if they can be implemented in a
  costlbeneficial manner.



                                                 17
        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any,of
changes in policy, procedure, or staffmg.

      The first step in accomplishing this goal will be to concentrate on docllIllenting, and
recommendingthe improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the review ofthe
management and operation of the agency and compliance with Congressional mandates.

RESOURCES REQUIRED

        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. One-half staff year of effort will be devoted over each of the next five years to the
compliance audits described above. The "Annual Audits" are expected to consume
approximately one-half staff year per year.




                                                18
                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL


        The OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                             19
20
     IL-·                                     Ta_b_le_2                :....--   1


                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (October 1,2005 - March 31,2006)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                 o            o
B.   Which were issued during the reporting
     period                                           o            o
     Subtotals (A + B)                                o            o
C.   For which a management decision was
     made during the reporting period                 o            o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                      o            o
     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                              o            o
D.   For which no management decision
     has been made by the end of the
     reporting period                                 o            o




                                              21
       The Inspector General
       needs your help to
       assure the integrity of
       CFTC's programs.



Report FRAUD, WASTE
 or ABUSE, to'the
INSPECTOR GENERAL,

HOTLINE
(202)418-5510
    , Office of the Inspector General
 Commodity Futures Trading Commission
          115521ST Street, N.W.
          Washington, D.C. 20581
